CERTIFICATE OF COMPLIANCE
Case No. Fulton v City of Philadelphia
Caption: 19-123
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,129 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 10, 2019.

Honeywell
Record Press, Inc.

Sworn to before me on
October 10, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 0lOS6101366

